BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Replacement Petition for Writ of Certiorari in
Marin Housing Authority v. Kerrie Reilly, was sent via
Next Day Standard Fed-Ex Service to the U.S.
Supreme Court, and via Next Day Standard Fed-Ex
Service to the following parties listed below, this 17th
day of February, 2021:
Autumn Marie Elliott
Disability Rights California
350 South Bixel Street, Suite 290
Los Angeles, CA 90017
(213) 213-8000
a utumn.elliott@disabilityrightsca.org

Counsel for Respondent
Robert Cooper
Wilson Elser Moskowitz Edelman & Dicker, LLP
555 South Flower Street,
Suite 2900
Los Angeles, CA 90071
(213) 330-8950
robert.cooper@wilsonelser.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

